BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 40 copies
and 1 unbound copy of the foregoing Brief of Amicus
Curiae Coalition of New Jersey Firearm Owners in
Support of Petitioner in 19-27, Mark Cheeseman v.
John Polillo, Chief of the Glassboro, New Jersey Police
Department; and Kevin T. Smith, Superior Court
Judge, Gloucester County, New Jersey, were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 18th day of
July, 2019:
David D. Jensen
David Jensen PLLC
111 John Street, Suite 420
New York, NY 10038
(212) 380-6615
david@djensenpllc.com

Counsel for Petitioner
Dana R. Anton
Gloucester County Prosecutor's Office
P.O. Box 623
Woodbury, NJ 08096
(856) 384-5500
danton@co.gloucester.nj.us

Counsel for Respondents
Gurbir Singh Grewal
Office of The Attorney General of New Jersey
RJ Hughes Justice Complex
25 Market Street, Box 080
Trenton, NJ 08625-0080

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

KERSHNER, J.D.

Stephen D. Stamboulieh
Counsel of Record
Stamboulieh Law, PLLC
P.O. Box 4008
Madison, MS 39130
(601) 852-3440
Stephen@sdslaw.us
Alan Alexander Beck
Law Office of Alexander Beck
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 18, 2019.

C.JL

e ·shner
Becker Ga agher Legal Publishing, Inc.
8790 Go ernoT1s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

